IN THE
SUPREME COURT OF THE UNITED STATES

JOHN OLIVER WOOTEN,
Petitioner,
v.
PATRICK WARREN,
Respondent.
DECLARATION VERIFYING TIMELY FILING
_________________
Petitioner John Oliver Wooten, through undersigned counsel, and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent through the United States
Postal Service by first-class mail, postage prepaid, and bears a postmark showing
that the document was mailed on or before the last day for filing, addressed to the
Clerk of the Supreme Court of the United States, on October 13, 2020, which is timely
pursuant to the rules of this Court.
FEDERAL PUBLIC DEFENDER
By:

/s/ Benton C. Martin
Benton C. Martin
613 Abbott St., Suite 500
Detroit, Michigan 48226
Telephone No. (313) 967-5542

